App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALINA KORSUNSKA,
Plaintiff-Appellant,
v.
KEVIN K. MCALEENAN,
Acting Secretary of Homeland
Security,

No. 16-55296
D.C. No.
2:14-cv-06056-CASAJW
MEMORANDUM*
(Filed Jul. 11, 2019)

Defendant-Appellee.1
Appeal from the United States District Court
for the Central District of California
Christina A. Snyder, District Judge, Presiding
Submitted July 9, 2019**
Pasadena, California
Before: M. SMITH and FRIEDLAND, Circuit Judges,
and AMON,*** District Judge.

1 Kevin K. McAleenan has been substituted for his predeces­
sor, Jeh Charles Johnson, under Fed. R. App. P. 43(c)(2).
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
The Honorable Carol Bagley Amon, United States Dis­
trict Judge for the Eastern District of New York, sitting by desig­
nation.

App. 2
Plaintiff-Appellant Alina Korsunska appeals the
district court’s grant of summary judgment on her
claim alleging unlawful retaliation by her former em­
ployer, the Department of Homeland Security (“DHS”),
in violation of Title VII of the Civil Rights Act. See 42
U.S.C. §§ 2000e-3,2000e-16. Reviewing de novo,Munoz
v. Mabus, 630 F.3d 856, 860 (9th Cir. 2010), we affirm.
We need not decide whether Korsunska made a
prima facie showing of retaliation because, even view­
ing the record in the light most favorable to her, she
lacks evidence to create a genuine dispute whether
DHS’s asserted legitimate reason for its failure to
purge from her electronic and hard-copy personnel
files the Standard Form 50 (“SF 50”) indicating that
she had been terminated was pretextual.2 See McDon­
nell Douglas Corp. v. Green, 411 U.S. 792, 804 (1973);
Munoz, 630 F.3d at 865-66. DHS contends that this al­
legedly retaliatory action was a mere administrative
oversight, and the record would not permit a reasona­
ble jury to determine that such an explanation is “un­
worthy of credence.” Tex. Dep’t of Cmty. Affairs v.
Burdine, 450 U.S. 248, 256 (1981).

2 Korsunska argues that the district court should not have
reached this question because the parties did not brief it. But
DHS did brief it—DHS argued in its reply brief on its motion to
dismiss that Korsunska could not establish a genuine question
whether its actions were pretextual, and Korsunska filed a surreply in which she declined to respond to this argument. In any
event, Korsunska does not identify any additional arguments she
would have made in the district court regarding pretext if the se­
quence of briefing had been different.

App. 3
Korsunska’s theory of pretext depends on two in­
ferences. First is the inference that DHS would have
chosen to retaliate against Korsunska by leaving both
the original and corrected forms in her electronic and
hard-copy personnel folders, rather than by simply
failing to add the corrected form in the first place. Sec­
ond is the inference that, after it deleted the original
form from her electronic personnel folder, DHS ex­
pected other federal agencies would access Korsun­
ska’s hard-copy personnel folder, where the original SF
50 remained, and thus left the form in that folder to
retaliate against Korsunska. But Korsunka has of­
fered no direct or circumstantial evidence that makes
either inference reasonable. On the contrary, DHS’s ac­
tions are consistent with its contention that the origi­
nal SF 50 was not purged from Korsunska’s files due
to administrative errors. In particular, DHS immedi­
ately complied with the settlement agreement by gen­
erating a new SF 50 showing that Korsunska had
resigned, and it then purged the original SF 50 from
her electronic official personnel folder of its own accord
after discovering two years later that the form re­
mained there in error. DHS also presents evidence that
federal agencies generally access electronic versions of
personnel files, and Korsunska offers no competent ev­
idence to support her speculation that any potential
employer would have consulted the hard-copy records
where the incorrect SF 50 remained. Given that DHS
took steps to comply with the settlement agreement
and voluntarily corrected its mistake in the electronic
file even before Korsunska brought the error to the
agency’s attention, no reasonable jury could conclude

App. 5
No. CV 14-6056 CAS (AJWx)
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
Korsunska v. Johnson
Decided Dec 30, 2015
No. CV 14-6056 CAS (AJWx)
12-30-2015
ALINA KORSUNSKA, Plaintiff, v. JEH JOHNSON,
Secretary, U.S. Department of Homeland Security, De­
fendant.
EILEEN M. DECKER United States Attorney LEON
W. WEIDMAN Assistant United States Attorney Chief,
Civil Division BETH MAXWELL STRATTON (Cal.
Bar No. 138049) Assistant United States Attorney Fed­
eral Building, Suite 7516 300 North Los Angeles Street
Los Angeles, California 90012 Telephone: (213) 8946828 Facsimile: (213) 894-7819 E-mail: Beth.Stratton@
usdoj.gov Attorneys for Defendant JEH JOHNSON
Secretary, U.S. Department of Homeland Security
Hon. Christina A. Snyder U.S. District Judge
EILEEN M. DECKER
United States Attorney
LEON W. WEIDMAN
Assistant United States Attorney
Chief, Civil Division
BETH MAXWELL STRATTON (Cal. Bar No. 138049)
Assistant United States Attorney

App. 6
Federal Building, Suite 7516
300 North Los Angeles Street
Los Angeles, California 90012
Telephone: (213) 894-6828
Facsimile: (213) 894-7819
E-mail: Beth.Stratton@usdoj.gov Attorneys for De­
fendant JEH JOHNSON Secretary, U.S. Department of
Homeland Security
JUDGMENT
RE: Defendant Jeh Johnson’s Motion for Summary
Judgment
Hon. Christina A. Snyder U.S. District Judge
Defendant Jeh Johnson moved this Court for an order
granting summary judgment against Plaintiff Alina
Korsunska. Defendant’s motion came on for hearing on
December 7,2015, at which time the Court entertained
oral argument from both parties.
Having considered the parties’ memoranda of law, the
statements of undisputed fact, the supporting decla­
rations and documentary evidence, the oral argument
of the parties, the Plaintiff’s sur-reply, and all of the
pleadings, records, and documents on file in this ac­
tion,
IT IS HEREBY ORDERED AND ADJUDGED that:
1. Defendant’s Motion for Summary Judgment is
GRANTED; and

App. 7
2. JUDGMENT IS HEREBY ENTERED in this ac­
tion in favor of Defendant Jeh Johnson and against
Plaintiff Alina Korsunska. Plaintiff shall pay to De­
fendant costs of suit according to proof.
IT IS SO ORDERED. DATED: December 30. 2015

IsL
HON. CHRISTINA A. SNYDER
UNITED STATES DISTRICT JUDGE

App. 8
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALINA KORSUNSKA,
Plaintiff-Appellant,
v.
KEVIN K. MCALEENAN,
Acting Secretary of Homeland
Security,
Defendant-Appellee.

No. 16-55296
D.C. No.
2:14-cv-06056-CASAJW
Central District of
California
ORDER
(Filed Nov. 19, 2019)

Before: M. SMITH and FRIEDLAND, Circuit Judges,
and AMON,*** District Judge.
The full court has been advised of Appellant’s pe­
tition for rehearing en banc, and no judge has re­
quested a vote on it. Fed. R. App. P.35. The petition for
rehearing en banc is DENIED.

The Honorable Carol Bagley Amon, United States Dis­
trict Judge for the Eastern District of New York, sitting by desig­
nation.

